                                                  OFFICE OF INSPECTOR GENERAL
                                                                           MEMORANDUM




DATE:          November 6, 2000

TO:            Managing Director

FROM:          Inspector General

SUBJECT:       Report on Follow-up Special Review of the FCC Collection System

The Office of Inspector General (OIG) has completed a Follow-up Special Review of the FCC
Collection System. A copy of our final audit report, entitled “Report on Follow-up Special
Review of the FCC Collection System”, is attached. The objective of this review was to
examine and validate the current status of findings contained in our original Collection System
report, examine the process that the Commission followed to select Digital System Group’s
RAMIS product and evaluate the detailed schedule and plan for implementation, and evaluate
the level of expenditure required to maintain the existing system to ensure that steps are being
taken to minimize expenditures.

The review team found that, although the FCC has made progress in closing several of the
findings over the past two years, many findings have not been addressed in a timely manner.
Several findings have not been resolved to completion or the supporting documentation provided
was not sufficient to allow the team to agree with closure of the finding. Specifically, the review
team found that of the one hundred twenty-nine (129) original findings, the FCC has indicated
that forty-two (42) are closed and eighty-seven (87) remain open. However, our review found
that thirty-four (34) of the original findings are resolved and can be considered closed and that
ninety-five (95) have not been adequately resolved and remain open. It should be noted that the
difference between the FCC and the OIG on the status of eight of the findings do not represent
nonconcurrence with the findings. All of these findings were concurred to in our original
review. Nonetheless, maintaining an accurate status of the findings is critical in ensuring that the
findings are ultimately resolved, and OIG will work to address both the differences in status and
resolution of all of the prior findings.

The most significant concern on the status of the findings is that only fifteen (15) of the original
forty-seven (47) High and Medium level risk findings have been adequately resolved. These
forty-seven (47) findings represent the most risk from a security and functionality standpoint.

Additionally, the review team has concluded that the expenditure levels for maintenance and
support of the existing Collection System did not decrease during the period under review and, in
fact, appear to have increased since the completion of the original review. Based on the
information and documentation provided by FCC personnel, there appears to be a satisfactory
process for the identification and selection of RAMIS to replace the current Collection System.

A summary of the status of the review findings is included in the section of this report entitled
“Conclusions”. Detailed findings are included in Appendix A of the report entitled “Status of
Detailed Observations and Recommendations.” Because of the sensitive nature of the detailed
findings, the Appendix A is marked “Sensitive” and distribution of the Appendix will be limited
to those persons with a need for the information. Those persons receiving the appendices to this
report are requested not to photocopy or otherwise distribute this material.

On September 29, 2000, we provided a draft report to the Office of Managing Director (OMD)
summarizing the results of our review and requesting their comments on the reported findings.
We received a response from the Managing Director on October 13, 2000. OMD did not agree
with the status of eight of the original review findings, as discussed above. Further, OMD
provided information that indicates that the expenditure levels for maintenance and support of
the existing Collection System has decreased from fiscal year 1999 to fiscal year 2000. We have
incorporated OMD comments and OIG responses to those comments into the narrative of the
report, where appropriate, and into the Detailed Observations and Recommendations contained
in Appendix A. In addition, we have included a copy of the OMD response in its entirety
(without enclosures) as Appendix B to this report. We will continue to monitor the status of our
original review findings and will incorporate steps in our audit of the fiscal year 2000 financial
statements to assess the effectiveness of the corrective actions in addressing the deficiencies
identified.

We would be happy to meet with you to discuss the results of this audit. If you have any
questions, please contact me at 418-0476.




                                             H. Walker Feaster III

Attachment

CC:    Chief Financial Officer (with Appendix)
       Chief, Wireless Telecommunications Bureau (w/o Appendix)
FEDERAL COMMUNICATIONS
      COMMISSION
         OFFICE OF INSPECTOR GENERAL




              Report on Follow-up Special Review of
                   The FCC Collection System

               Special Review Report No. 00-AUD-07-47
                          November 6, 2000




H. Walker Feaster III                          Thomas D. Bennett
 Inspector General                     Assistant Inspector General for Audits
                                          Report on Follow-up Special Review of
                                               The FCC Collection System


                                                         Table of Contents



                                                                                                                          Page



EXECUTIVE SUMMARY ................................................................................................... 1



REVIEW OBJECTIVES ....................................................................................................... 4



REVIEW SCOPE................................................................................................................... 4



BACKGROUND ................................................................................................................... 5



CONCLUSIONS.................................................................................................................... 6



APPENDIX A                Status of Detailed Observations and Recommendations



APPENDIX B                Response to the Draft Report
EXECUTIVE SUMMARY

On September 25, 1998, the Federal Communications Commission (FCC) Office of Inspector
General (OIG) issued a Special Review report entitled “Special Review of the FCC Collection
System.” The objectives of this Special Review were to examine the Commission’s operational
Collection system, examine on-going modifications to the system, and to recommend alternative
products. The review was conducted by a review team comprised of representatives from the OIG
and computer security firm of TWM Associates, Inc. (hereafter referred to as TWM). This review
resulted in one-hundred twenty-nine (129) observations in the areas of: internal controls; audit
trails; programming support; database support; security; banking related matters; business process
improvements; policies and procedures, and systems development lifecycle issues. Of the one
hundred twenty-nine (129) observations, forty-seven (47) were considered high and medium
exposure items that should be addressed immediately. The review concluded that the Collection
System does not include all payment transactions, does not provide clear audit trails, does not
provide for an adequate level of logical internal controls, does not reconcile to the General Ledger,
and supports less than thirty percent (30%) of desired functionality. The review further revealed
that it would be cost prohibitive to bring the current in-house developed Collection System to an
acceptable level of functionality. As a result of the Special Review of the Collection System, the
Commission is implementing the Revenue Accounting and Management Information System
(RAMIS) to replace the collection system that the original review was based upon. RAMIS is a
version of a commercial off the shelf (COTS) product from Digital Systems Group (DSG)
modified for the FCC.

Given the significance of the issues identified during our original review, and in accordance with
GAO “Yellow Book” standards1, the OIG established a task order under our contract with TWM
to conduct a follow-up of the Special Review of the Collection System. The objectives of the
follow-up review were to:

        •   Examine the status of the FCC’s resolution of the findings detailed in the original
            Special Review of the Collection System;

        •   Evaluate the level of expenditure required to maintain the existing Collection System;
            and

        •   Evaluate the FCC’s selection of the product RAMIS and the detailed implementation
            plan.

The review was conducted primarily through interviews with FCC and contractor personnel and
through the review of documentation provided during the interviews.

The review team found that, while progress has been made in resolving the issues raised in our
original review, many findings have not been addressed in a timely manner. Several findings

1   GAO Government Auditing Standards state “(a)uditors should follow up on significant findings and
    recommendations from previous audits …to determine whether timely and appropriate corrective actions have
    been taken by auditee officials.”


                                                       1
have not been resolved to completion or the supporting documentation provided was not sufficient
to allow the team to agree with closure of the finding. The review team found that of the one
hundred twenty-nine (129) original findings, the FCC has indicated that forty-two (42) are closed
and eighty-seven (87) remain open. Our review found that thirty-four (34) of the original findings
are resolved and can be considered closed and that ninety-five (95) have not been adequately
resolved and remain open. The most significant concern on the status of the findings is that only
fifteen (15) of the original forty-seven (47) High and Medium level risk findings have been
adequately resolved. These forty-seven (47) findings represent the most risk from a security and
functionality standpoint. Many of the findings are to be resolved thorough implementation of
RAMIS or through development of the policies and procedures. At the time our review was
conducted, the RAMIS system was not operational. In fact, the RAMIS project has been delayed
many times and has undergone many revisions in its design and implementation. As of the date of
this report, RAMIS is scheduled to be fully operational in December 2000. Because RAMIS is
not operational, we believe that these findings should be considered open until it can be
demonstrated that RAMIS is able to adequately address the issues that are dependant upon the
system. In addition to findings related to RAMIS findings, we identified several findings related
to policies and procedures that were needed for the collections process. The necessary policies
and procedures were not evident or made available during the follow-up review. Although some
of the necessary documents exist, the review team was unable to confirm that the processes are
being followed or used. It should be noted that some findings might now be closed that were not
examined during the period of this review.

When the original special review was completed, we anticipated that it would take a significant
period of time to identify, select, and implement a new collection system. Further, we realized
that the existing system would require continued support until it was replaced. However, it was
anticipated that the level of support and the resultant expenditures would decrease over time. Our
follow-up review has disclosed that the level of expenditure required to support the current
collection system has not decreased since October 1998 and, in fact, rose from an average of
$80,000 per month for the period 1997-1998 to an average of $92,313 per month for the period
1998-1999.
As part of the follow-up review process, we examined weekly contractor meeting minutes and
monthly expenditures and were unable to identify any significant new activities in the
maintenance and operation of the old collection system.

Our review of the proposal and contract award process and discussions with RAMIS personnel
and end-users indicate that the process used to select DSG’s RAMIS product seems reasonable
and logical. In-depth procedures were used to document operational requirements, and software
demos were conducted.

Based on the review procedures performed, we determined that several of the findings from our
original review have not been properly resolved. A summary of the findings is included in the
section of the report entitled “Conclusions”. Appendix A to this report contains details on the
findings and the auditee responses to the findings. Because of the sensitive nature of the detailed
findings, Appendix A is marked “Sensitive” and distribution of Appendix A will be limited to
those persons with a need for the information.




                                                 2
On September 29, 2000, we provided a draft report to OMD summarizing the results of our review
and requesting their comments on the reported findings. We received a response from the
Managing Director on October 13, 2000. The FCC did not agree with the status of eight
observations (see findings 1, 14, 23, 37, 41, 42, 54 and 125 in Appendix A for details). It should
be noted that the difference between the FCC and the OIG on the status of eight of the findings do
not represent nonconcurrence with the findings. All of these findings were concurred to in our
original review. Nonetheless, maintaining an accurate status of the findings is critical in ensuring
that the findings are ultimately resolved, and OIG will work to address both the differences in
status and resolution of all of the prior findings. Further, OMD provided information that
indicates that the expenditure levels for maintenance and support of the existing Collection
System has decreased from fiscal year 1999 to fiscal year 2000. We have incorporated OMD
comments into the Detailed Observations and Recommendations contained in Appendix A. In
addition, we have included a copy of the OMD response in its entirety (without enclosures) as
Appendix B to this report.

The rationale for the FCC’s nonconcurrence with the status of the eight observations listed above
is that there are new or alternate procedures in place that effectively resolves the findings.
However, the procedures that address six of the findings (findings 1, 14, 37, 41, 42 and 125) were
not provided to the OIG review team during their fieldwork, and we have not reviewed or tested
the procedures to ensure that they provide effective resolution to the observations in our original
report. Resolution for the remaining two findings (37 and 54) rely upon a process that was
developed subsequent to our original review and is yet to be utilized. The OIG considers these
eight findings to be open until we have had an opportunity to review the effectiveness of the new
procedures. Additionally, the information provided by OMD to support potential reductions in the
costs to maintain and support the existing Collection System was not provided during our
fieldwork, and is difficult to compare to the expenditure data we reviewed. OMD provided the
total expenditures for two contractors (Computech and DynCorp) for all of fiscal years 1999 and
2000. The review team reviewed monthly invoices submitted by Computech for the period
October 1998 through August 1999. In our opinion, the FCC must continue to closely monitor the
expense for continued support of the old collection system until it is replaced to ensure that the
level of expenditure is appropriate.

OIG will continue to monitor the status of our original review findings and will incorporate steps
in our audit of the fiscal year 2000 financial statements to assess the effectiveness of the corrective
actions in addressing the deficiencies identified.




                                                  3
REVIEW OBJECTIVES

On September 25, 1998, the Federal Communications Commission (FCC) Office of
Inspector General (OIG) issued a Special Review report entitled “Special Review of the
FCC Collection System” which summarized the results of our review of FCC collection
system. This review resulted in one hundred twenty-nine (129) observations in the areas
of: internal controls; audit trails; programming support; database support; security;
banking related matters; business process improvements; policies and procedures, and
systems development lifecycle issues. Of the one hundred twenty-nine (129)
observations, forty-seven (47) were considered high and medium exposure items that
should be addressed immediately. The review concluded that the Collection System does
not include all payment transactions, does not provide clear audit trails, does not provide
for an adequate level of logical internal controls, does not reconcile to the General
Ledger, and supports less than thirty percent (30%) of desired functionality. The review
further revealed that it would be cost prohibitive to bring the current in-house developed
Collection System to an acceptable level of functionality. Given the significance of the
issues identified during our original review, and in accordance with GAO “Yellow Book”
standards2, the OIG established a task order under our contract with TWM to conduct a
follow-up of the Special Review of the Collection System. The objective of this review
was to examine and validate the current status of findings contained in our original
Collection System report. Specifically, the objectives were to:

        •   Follow-up on specific observations identified in the FCC’s Special Review
            Report to ensure that appropriate corrective actions have been implemented;

        •   Evaluate the level of expenditure required to maintain the existing system to
            ensure that steps are being taken to minimize expenditures; and

        •   Examine the process that the Commission followed to select DSG’s RAMIS
            product and evaluate the detailed schedule and plan for implementation.

REVIEW SCOPE

This project was conducted as a special review and was not conducted in accordance with
all professional auditing standards. A special review was conducted in this case because
1) our original report was the based on a special review and 2) a special review is
considered appropriate in performing follow-up effort.

To conduct this special review, the OIG established a task order under our contract with
the computer security firm of TWM Associates, Inc. (TWM). This review consisted of
three parts. The first part of the review was to examine the resolution of the findings in
the original special review of the collection system. The team identified findings
indicated as closed by the FCC and proceeded to gather evidence to support the closure
of each finding. The objective of this step was to identify findings that the FCC had
indicated as resolved and to determine whether documentation was available that

2   GAO Government Auditing Standards state “(a)uditors should follow up on significant findings and
    recommendations from previous audits …to determine whether timely and appropriate corrective
    actions have been taken by auditee officials.”

                                                  4
supported the closure of the findings. The fieldwork performed included interviews with
FCC personnel, Mellon Bank personnel, and Computech personnel. The team reviewed
documentation supporting the resolution of FCC closed findings and, in some cases,
visited the locations within the FCC in order to support closure of the findings.

The second part of the review was to evaluate the expenditure level for maintenance of
the current Collection System to ensure that steps are being taken to minimize
expenditures. The team conducted interviews with FCC personnel, reviewed
documentation provided by the FCC contractor Computech to determine expenditure
levels, and reviewed Contracting Officer Technical Representative (COTR) and
contractor meeting minutes.

In order to determine whether costs had been reduced, the team requested monthly
Collections expenditure invoices. The team reviewed documentation provided by
Computech, the company responsible for maintenance of the Collection system. Expense
reports for the months of October 1998 to August 1999 were provided.

The objective of the third part of the review was to examine the process of selecting
Digital Systems Group (DSG), the vendor that developed and is implementing RAMIS,
and evaluate the detailed schedule and implementation plan. To accomplish this
objective, we interviewed the FCC RAMIS Project Manager to discuss the proposal
process, reviewed the RAMIS Operational Requirements document developed by the
FCC, and reviewed the FCC Technical Evaluation Worksheet. Further, we reviewed and
assessed the RAMIS implementation plan developed by DSG, reviewed and assessed
sections of the proposal submitted by DSG to determine the overall approach for
implementation of RAMIS, and reviewed the RAMIS implementation schedule and the
CORES development and implementation schedule.

Fieldwork for this review took place at the FCC building at 445 12th Street, N.W. and at
Computech facilities in Washington, DC during the period September 1999 to July 2000.

BACKGROUND

In June 1997, the OIG initiated a review of the Commission’s collection system. The
objectives of this review were to examine the current operational system, examine on-
going modifications, and recommend alternative products. To accomplish these
objectives, the OIG established a task order under our contract with TWM. An additional
objective of the initial review was to assess the integrity of the data in the collection
system. Ernst & Young conducted this part of the review, under subcontract to TWM.
We did not follow up on the results of this portion of the original review as part of the
current effort, other than to verify information contained in Proof of Cash binders. See
finding number 129 in Appendix A for further details.

In a report entitled “Special Review of the FCC Collection System” and dated September
1998, the review team reported one hundred twenty-nine (129) observations in the areas
of: internal controls; audit trails; programming support; database support; security;
banking related matters; business process improvements; policies and procedures, and
systems development lifecycle issues. Of the one hundred twenty-nine (129)
observations, forty-seven (47) are considered high and medium exposure items that
                                           5
should be addressed immediately. As a result of these findings, the review team
recommended that the Commission: (1) evaluate, select, and implement a COTS product
and; and (2) establish minimal maintenance of the existing system during the period the
COTS product is being selected.

In response to this review, the Commission made a decision to replace the existing
Collection system and hired staff to facilitate the selection and implementation of a new
system. In July 1999, the Revenue Accounting and Management Information System
(RAMIS) development team reported that the Commission had selected a COTS product
to replace the existing Collection System. The RAMIS development team further
indicated that the vendor, Digital Systems Group (DSG), established an aggressive
schedule for “minimal modification” and implementation of the system. The schedule
anticipated that use of the existing system was to be discontinued in June 2000.

CONCLUSIONS

Although the FCC has made progress over the past two years, many findings have not
been addressed in a timely manner. Several findings have not been resolved to
completion or the supporting documentation provided was not sufficient to allow the
team to agree with closure of the finding. The following table summarizes the current
status of the findings:


                           FCC Reported                     Review Team Verified
                       Open          Closed                 Open          Closed
High                    14               9                   17              6
Medium                  14              10                   15              9
Low                     59              23                   63             19
Total                   87              42                   95             34


The review team found that of the one hundred twenty-nine (129) original findings, the
FCC has indicated that forty-two (42) of them are closed and eighty-seven (87) remain
open. However, our review found that thirty-four (34) of the original findings are
resolved and can be considered closed. Ninety-five (95) findings have not been
adequately resolved and remain open. The most significant concern on the status of the
findings is that only fifteen (15) of the original forty-seven (47) High and Medium level
risk findings have been adequately resolved. These forty-seven (47) findings represent
the most risk from a security and functionality standpoint. Our opinion is that ample time
has passed since the original report was issued in September 1998 to adequately resolve
most, if not all, of these critical findings.

Many of the findings are to be resolved through implementation of RAMIS or through
development of the policies and procedures. While the implementation of RAMIS should
improve the Commission’s collections (assuming that RAMIS embodies all of the
operational requirements developed by the FCC), the RAMIS project has been delayed
many times and has undergone many revisions in its design and implementation. In our
opinion, findings that will be resolved based on the implementation and functionality of


                                            6
RAMIS should be considered open until it can be demonstrated that RAMIS is able to
adequately address the issues that are dependant upon the system. Additionally,
implementation of the policies and procedures that are needed to resolve several of the
original findings were not evident or made available during this review. Although some
of the necessary documents exist, the team was unable to confirm that the processes are
being followed or used. It should be noted that some findings might now be closed that
were not examined during the period of this review.

Upon review of the expense reports that contain the expenditures to support the current
Collection System, we found that the total amount due to Computech did not decrease or
seem to be declining. We reviewed expense reports that coincided with the period of
time in which maintenance costs were scheduled to decline due to RAMIS coming on-
line. The following graphs depict the monthly averages of money expended and the
number of Computech personnel working on Collection “maintenance.”



                                                          Collection M aintenance M onthly Expenditures


                       $160,000.00


                       $140,000.00


                       $120,000.00


                       $100,000.00
       Dollar Amount




                        $80,000.00


                        $60,000.00


                        $40,000.00


                        $20,000.00


                             $0.00
                                                                       January




                                                                                                                                             Monthly Average
                                                                                                                May
                                                                                 February




                                                                                                                      June




                                                                                                                                    August
                                                                                            March
                                     October




                                                                                                        April
                                                            December
                                               November




                                                                                                                             July




                                                                                            FIGURE 1




The values provided in Figure 1 were derived from invoices provided by Computech.
Figure 1 includes the total expenditures for each month and the average monthly
expenditure ($92,313) during the timeframe reviewed.




                                                                                                    7
                                                              M onthly Averages of Com putech People W orking Full-T im e on C ollections


                                                                     16


       Average Number of People Working Full-Time on                 14


                                                                     12


                                                                     10
                                                       Collections




                                                                      8


                                                                      6


                                                                      4


                                                                      2


                                                                      0




                                                                                                                                                                         August
                                                                                                                                             April




                                                                                                                                                                  July
                                                                                    November




                                                                                                                                                           June
                                                                                                          January



                                                                                                                    February




                                                                                                                                                     May
                                                                                               December




                                                                                                                                  March
                                                                          October




                                                                                                                               FIG U R E 2




The values in Figure 2 were calculated by taking the total number of hours worked per
month and dividing it by the number of billable hours per month (estimated as 173 hours
per month). The graph indicates that the number of people working full time on
Collection has not significantly decreased. In fact, it has increased slightly after January
1998.

The expenditure levels for the existing collection system have not decreased since the
prior review. With the delay of RAMIS implementation, the team took into account that
continued support and operation of the Collection system is required. The team identified
that maintenance costs of the existing system have not decreased and maintenance labor
seemed to increase after January 1998. In addition, the average cost per month of
maintaining collections in the 1998-1999 is $92,313, which is approximately $10,000
more than the 1997-1998 year. The team reviewed COTR meeting minutes to determine
if there was an identifiable cause for an increase of expenditures. However, the meeting
minutes are vague and contain general information that does not identify a business need
for an increase in expenditures, and there is no evidence of significant new activities in
the Collection system. It is difficult to understand an increasing level of expenditures to
support a system that is soon to be replaced. The Commission should closely monitor the
expense for continued support of the old collection system to ensure that the level of
expenditure is appropriate.

Based on the information and documentation provided by FCC personnel, there appears
to be a satisfactory process for the identification and selection of RAMIS to replace the
current Collection System. Prior to the selection of RAMIS, the Bureaus and Offices
were interviewed about the current collection system and a working group was assembled
to finalize the functional requirements for the Collection System. The final requirements
integrated business identified during the interviews and by the FCC RAMIS development
team contained 18 separate categories and 1,800 final requirements and identified data

                                                                                                                                  8
element rules, business rules, and matrices of processes. Based on the identified
requirements, the Statement of Work (SOW) went through 617 Red Teams and was sent
to specific vendors on the GSA schedule. Two vendors, KPMG and Digital Systems
Group (DSG), responded to the SOW. Each vendor provided documentation requested
by the FCC and gave an operational capabilities demonstration for the evaluation team.

DSG provided a detailed implementation plan and schedule for RAMIS. The plan
addresses key points necessary for successful execution of the plan, such as a list of
deliverables for each task and information for successful equipment and software
installation. While the requirements and implementation plan seem reasonable,
implementation has proven to be a more difficult task. As the date of this report, RAMIS
implementation has been postponed to December 2000.

Included in Appendix A is narrative supporting the review team’s assessment of the open
or closed status of the findings contained in the original special review report on the
Collection System. Because of the sensitive nature of the detailed findings, Appendix A
is marked “Sensitive” and distribution of Appendix A will be limited to those persons
with a need for the information.

On September 29, 2000, we provided a draft report to the Office of Managing Director
(OMD) summarizing the results of our review and requesting their comments on the
reported findings. We received a response from the Managing Director on October 13,
2000. The FCC did not agree with the status of eight observations (see findings 1, 14, 23,
37, 41, 42, 54 and 125 in Appendix A for details). It should be noted that the difference
between the FCC and the OIG on the status of eight of the findings do not represent
nonconcurrence with the findings. All of these findings were concurred to in our original
review. Nonetheless, maintaining an accurate status of the findings is critical in ensuring
that the findings are ultimately resolved, and OIG will work to address both the
differences in status and resolution of all of the prior findings. Further, OMD provided
information that indicates that the expenditure levels for maintenance and support of the
existing Collection System has decreased from $1,281,938 in fiscal year 1999 to
$991,103 in fiscal year 2000. We have incorporated OMD comments into the Detailed
Observations and Recommendations contained in Appendix A. In addition, we have
included OMD comments in their entirety (without enclosures) as Appendix B to this
report.

The rationale for the FCC’s nonconcurrence with the status of the eight observations
listed above is that there are new or alternate procedures in place that effectively resolves
the findings. However, the procedures that address six of the findings (findings 1, 14, 37,
41, 42 and 125) were not provided to the OIG review team during their fieldwork, and we
have not reviewed or tested the procedures to ensure that they provide effective
resolution to the observations in our original report. Resolution for the remaining two
findings (37 and 54) rely upon a process that was developed subsequent to our original
review and is yet to be utilized. The OIG considers these eight findings to be open until
we have had an opportunity to review the effectiveness of the new procedures.
Additionally, the information provided by OMD to support potential reductions in the
costs to maintain and support the existing Collection System was not provided during our
fieldwork, and is difficult to compare to the expenditure data we reviewed. OMD

                                             9
provided the total expenditures for two contractors (Computech and DynCorp) for all of
fiscal years 1999 and 2000. The review team reviewed monthly invoices submitted by
Computech for the period October 1998 through August 1999. In our opinion, the FCC
must continue to closely monitor the expense for continued support of the old collection
system until it is replaced to ensure that the level of expenditure is appropriate.

OIG will continue to monitor the status of our original review findings and will
incorporate steps in our audit of the fiscal year 2000 financial statements to assess the
effectiveness of the corrective actions in addressing the deficiencies identified.




                                             10
